Petition for Writ of Certiorari
Timothy Marcus Mayberry
CERTIFICATE OF SERVICE
I, Timothy Marcus Mayberry, hereby certify that on July 8th, 2021, I placed
this ‘Petition for Writ of Certiorari’ in the I.D.O.C. prison mail system to be
delivered by the United States Postal Service first-class pre-paid postage to:

United States Supreme Court Clerk
One 1st Street NE
Washington, D.C. 20543
Office of the Attorney General of Indiana
Indiana Government Center South 5th floor
Indianapolis, IN 46204

"O-

ft

Timothy-Marcus:Mayberry

Date

3

Petitioner’s Appendix to Petition for Writ of Certiorari
Timothy Marcus Mayberry
CERTIFICATE OF SERVICE
• I, Timothy Marcus Mayberry, hereby certify that on August 18th, 2021, I
placed this ‘Petition for Writ of Certiorari’ in the I.D.O.C. prison mail system to be
delivered by the United States Postal Service first-class pre-paid postage to:
United States Supreme Court Clerk
One 1st Street NE
Washington, D.C. 20543

Office of the Attorney General of
Indiana Indiana Government Center
South 5th floor Indianapolis, IN 46204

:

11

Timothy-Marcus:Mayberry

Date

VERIFICATION OF APPENDIX AUTHENCITY
I affirm under the penalty of perjury, pursuant to 18 USCS § 1621 (2), this
18th day of August, 2021, that the documents contained within my appendix are
true, authentic, and accurate copies of the original documents as they were
delivered to me.

8-V&-3A
Date

Timothy Marcus Mayberry

